      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




April 8, 2010

TO:             Charlene Frizzera
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Joseph E. Vengrin/
                Deputy Inspector General for Audit Services


SUBJECT:        Analysis of Improper Payments Identified During the Payment Error Rate
                Measurement Program Reviews in 2006 and 2007 (A-06-09-00079)


The attached final report provides the results of our review of Medicaid payment errors identified
in the 2006 and 2007 Payment Error Rate Measurement program.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact Joseph J. Green, Assistant Inspector General for Financial
Management and Regional Operations, at (202) 619-1157 or through email at
Joe.Green@oig.hhs.gov. Please refer to report number A-06-09-00079 in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




     ANALYSIS OF IMPROPER
  PAYMENTS IDENTIFIED DURING
   THE PAYMENT ERROR RATE
    MEASUREMENT PROGRAM
   REVIEWS IN 2006 AND 2007



                       Daniel R. Levinson
                        Inspector General

                           April 2010
                         A-06-09-00079
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. The Federal Government
pays its share of States’ medical assistance expenditures based on the Federal medical assistance
percentage (FMAP), which varies depending on each State’s relative per capita income. To
ensure proper and efficient payment of Medicaid claims, the Act requires States to have claim
payment procedures that provide for prepayment and postpayment claims review.

The American Recovery and Reinvestment Act of 2009 (the Recovery Act), P.L. No. 111-5,
provides fiscal relief to States to protect and maintain State Medicaid programs in a period of
economic downturn. For the recession adjustment period (October 1, 2008, through
December 31, 2010), the Recovery Act provides an estimated $87 billion in additional Medicaid
funding based on temporary increases in States’ FMAP.

The Improper Payments Information Act of 2002 (IPIA) requires the head of each Federal
agency with any program or activity that may be susceptible to significant improper payments to
report to Congress the agency’s estimates of the improper payments. The IPIA also requires the
Director of the Office of Management and Budget (OMB) to prescribe guidance on
implementing IPIA requirements. OMB identified Medicaid as a program at risk for significant
erroneous payments and directed the Department of Health & Human Services to report the
estimated Medicaid error rate in its Performance and Accountability Reports.

The Centers for Medicare & Medicaid Services (CMS) developed the Payment Error Rate
Measurement (PERM) program to comply with IPIA and OMB requirements for measuring
improper Medicaid payments. The PERM program measures improper payments from a sample
of Medicaid claims in 17 different States (including the District of Columbia as a State) every
year; thus, each State is chosen only once every 3 years. CMS used three Federal contractors to
administer the PERM program: a statistical contractor, documentation/database contractor, and
review contractor. The review contractor conducts medical reviews and data processing reviews
on the sample claims to determine whether they were paid correctly. CMS sends each State an
error report detailing the types of errors identified during its PERM program review and requires
the State to develop corrective actions to address the causes of the errors.

The PERM results for the 17 States reviewed each year are used to calculate a national Medicaid
error rate. In fiscal year (FY) 2006, the PERM program measured improper payments in
Medicaid’s fee-for-service component. CMS estimated that the national Medicaid error rate was
4.7 percent, or $6.6 billion (Federal share) in improper payments. For FY 2007 and future years,
CMS intended for the PERM program to determine whether States appropriately decided
beneficiary eligibility and to measure improper payments made in the fee-for-service and
managed care components of Medicaid. CMS estimated that the combined eligibility, fee-for-
service, and managed care error rate for FY 2007 was 10.5 percent, or $18.6 billion (Federal
share) in improper payments.



                                                i
The Office of Inspector General reviews the PERM program. Our work has included testing and
analysis of the PERM sampling and estimation methodology, the medical records request
process, medical review, and the error estimation calculation.

OBJECTIVE

Our objective was to analyze improper payment information related to the types of errors and
service categories included in the FY 2006 and 2007 PERM program reviews.

SUMMARY OF RESULTS

Of the 1,356 medical review errors we analyzed, 4 types accounted for 78 percent of the errors
and 95 percent of the net improper Medicaid overpayments. The four error types were
insufficient documentation, no documentation, services that violated State policies, and
medically unnecessary services. The 1,356 errors included 23 service categories, 6 of which
accounted for 67 percent of the errors and 95 percent of the net improper Medicaid
overpayments. The six service categories were nursing facility, inpatient hospital, other
services—Home and Community-Based Services waivers, intermediate care facility for the
mentally retarded, prescribed drugs, and physician.

Of the 202 data processing errors we analyzed, 4 types accounted for 78 percent of the errors and
64 percent of the net improper Medicaid overpayments. The four error types were pricing errors,
noncovered services errors, rate cell errors for managed care claims, and errors in the logic edits
of claim processing systems. The 202 errors represented 18 service categories, 6 of which
accounted for nearly 73 percent of the errors and 79 percent of the net improper Medicaid
overpayments. The six service categories were inpatient hospital, nursing facility, capitated care,
prescribed drugs, physician, and outpatient hospital.

RECOMMENDATION

For future PERM years, we recommend that CMS develop and provide to the States analytical
data similar to that contained in this report and encourage the States to use the data to help ensure
that payments, including those funded by the Recovery Act, comply with Federal requirements.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

CMS concurred with the recommendation and said that it would be implemented starting with
the FY 2010 measurement cycle. CMS’s comments are included in their entirety as Appendix E.




                                                 ii
                                                 TABLE OF CONTENTS

                                                                                                                                Page

INTRODUCTION……………………………………………………………………………...1

         BACKGROUND ..............................................................................................................1
             Medicaid Program.................................................................................................1
             Temporary Increase in Federal Medical Assistance Percentages .........................1
             Improper Payments Information Act of 2002.......................................................2
             Payment Error Rate Measurement Program .........................................................2

         OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................4
              Objective ................................................................................................................4
              Scope……………………………………………………………………………..4
              Methodology ..........................................................................................................4

RESULTS OF REVIEW ............................................................................................................5

         MEDICAL REVIEW ERRORS .......................................................................................5
              Errors by Type ......................................................................................................5
              Errors by Service Categories ................................................................................6

         DATA PROCESSING ERRORS ....................................................................................7
             Errors by Type .......................................................................................................7
             Errors by Service Categories .................................................................................8

RECOMMENDATION..............................................................................................................9

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ..........................9

APPENDIXES

       A: STATES’ FEDERAL MEDICAL ASSISTANCE PERCENTAGES AND
          INCREASED GRANT PERCENTAGES AND AMOUNTS FOR THE FIRST TWO
          QUARTERS OF FISCAL YEAR 2009

       B: MEDICAL AND DATA PROCESSING REVIEW ERROR CODES AND
          DEFINITIONS

       C: SUMMARY OF CLASSIFIABLE MEDICAL REVIEW ERRORS AND THE
          RESULTING OVERPAYMENTS AND UNDERPAYMENTS FOR EACH TYPE

       D: SUMMARY OF CLASSIFIABLE DATA PROCESSING ERRORS AND THE
          RESULTING OVERPAYMENTS AND UNDERPAYMENTS FOR EACH TYPE

       E: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

                                                                   iii
                                            INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
States have considerable flexibility in designing and operating their Medicaid programs, they
must comply with applicable Federal requirements.

To ensure proper and efficient payment of Medicaid claims, section 1902(a)(37)(B) of the Act
requires States to have claim payment procedures that provide for prepayment and postpayment
claims review, including review of appropriate data about providers, patients, and the nature of
the services for which payments are claimed.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of States’ medical
assistance expenditures under Medicaid based on the Federal medical assistance percentage
(FMAP), which varies depending on each State’s relative per capita income. 1 Although FMAPs
are adjusted annually for economic changes in the States, Congress may increase FMAPs at any
time.

Temporary Increase in Federal Medical Assistance Percentages

The American Recovery and Reinvestment Act of 2009 (the Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, provides fiscal relief to States to protect and maintain State Medicaid
programs in a period of economic downturn. For the recession adjustment period (October 1,
2008, through December 31, 2010), the Recovery Act provides an estimated $87 billion in
additional Medicaid funding based on temporary increases in States’ FMAPs. Section 5000 of
the Recovery Act provides for these increases to help avert cuts in health care payment rates,
benefits, or services and to prevent changes to income eligibility requirements that would reduce
the number of individuals eligible for Medicaid.

Sections 5001(a), (b), and (c) of the Recovery Act provide that a State’s increased FMAP during
the recession adjustment period will be no less than its 2008 FMAP increased by 6.2 percentage
points and that a State may receive an increase greater than 6.2 percentage points based on
increases to its average unemployment rate. (See Appendix A for a list of the increased FMAPs




1
 The FMAP is also used to determine the Federal Government’s share of certain child support enforcement
collections, Temporary Assistance for Needy Families contingency funds, a portion of the Child Care and
Development Fund, and foster care and adoption assistance payments.
                                                       1
and Federal grant awards for the 50 States and the District of Columbia for the first and second
quarters of fiscal year (FY) 2009.) 2

Improper Payments Information Act of 2002

The Improper Payments Information Act of 2002 (IPIA), P.L. No. 107-300, requires the head of
a Federal agency with any program or activity that may be susceptible to significant improper
payments to report to Congress the agency’s estimates of the improper payments. In addition,
for any program or activity with estimated improper payments exceeding $10 million, the agency
must report to Congress the actions that the agency is taking to reduce those payments. Improper
payments are defined as payments that should not have been made or that were for incorrect
amounts and include payments (1) to ineligible recipients, (2) for ineligible services, (3) that
were duplicated, (4) for services not received, and (5) that do not account for credit for
applicable discounts.

Pursuant to section 2(f) of the IPIA, the Director of the Office of Management and Budget
(OMB) must prescribe guidance on implementing IPIA requirements. OMB’s implementation
guidance, memorandum M-03-13, defined significant improper payments as “annual erroneous
payments in the program exceeding both 2.5 percent of program payments and $10 million” and
indicated that the estimated amount should be statistically valid. OMB identified Medicaid as a
program at risk for significant erroneous payments and directed the Department of Health &
Human Services to report the estimated Medicaid error rate in its Performance and
Accountability Reports.

Payment Error Rate Measurement Program

CMS developed the Payment Error Rate Measurement (PERM) program to comply with IPIA
and OMB requirements for measuring improper Medicaid payments. 3 For FY 2006, CMS
intended for the PERM program to measure improper payments made in Medicaid’s fee-for-
service component. CMS estimated that the national Medicaid error rate was 4.7 percent, or
$6.6 billion (Federal share) in improper payments. For FY 2007 and future years, CMS intended
for the PERM program to determine whether States appropriately decided beneficiary eligibility
and to measure improper payments made in the fee-for-service and managed care components of
Medicaid. CMS estimated that the combined eligibility, fee-for-service, and managed care error
rate was 10.5 percent, or $18.6 billion (Federal share) in improper payments. Additionally, CMS
reported separate error rates for the fee-for-service (8.9 percent), managed care (3.1 percent), and
eligibility (2.9 percent) components for FY 2007.

CMS used three Federal contractors to administer the PERM program:

          a statistical contractor that collected the claims universes from the States, selected a
           sample of claims to be reviewed from each State, and ultimately calculated the State and
           national error rates for Medicaid;

2
  Because the Recovery Act was enacted during the second quarter of FY 2009, it includes a special rule in section
5001(c)(4)(C) that specifies how to calculate the increased FMAPs for the first two quarters of FY 2009. Based on
this calculation, each State’s increased FMAP was the same for both quarters.
3
    See 71 Fed. Reg. 51050 (August 28, 2006) and 42 CFR part 431, subpart Q.
                                                         2
      a documentation/database contractor that collected Medicaid medical policies from each
       State and medical records from the sampled providers; and

      a review contractor that performed the medical and data processing reviews on the
       sampled claims to determine whether the claims were paid correctly.

The review contractor reviewed medical records from the sampled claims to determine whether,
among other things, the types of services provided were in accordance with State policy and
guidelines, the services provided were medically necessary, and the medical record
documentation was complete. The review contractor also conducted data processing reviews to
determine whether claims had been processed correctly by the States’ claims processing systems.
(See Appendix B for the medical and data processing review error codes and definitions the
review contractor used.)

CMS sends each State an error report detailing the types of errors identified during its PERM
program review and requires the State to review the errors, determine the root cause of the errors,
and develop corrective actions to address those causes. CMS also expects States to monitor
implemented corrective actions to determine whether the actions are effective and whether goals
are being reached.

The PERM program measures improper payments in 17 different States (including the District of
Columbia as a State) every year; thus, each State is measured only once every 3 years on a
cyclical basis. Table 1 shows the cycle of States from FYs 2006 through 2008.


                 Table 1: States Selected for PERM Over the 3-Year Cycle
                  Arkansas, Connecticut, Delaware, Idaho, Illinois, Kansas, Michigan,
    FY 2006       Minnesota, Missouri, New Mexico, North Dakota, Ohio, Oklahoma,
                  Pennsylvania, Virginia, Wisconsin, Wyoming
                  Alabama, California, Colorado, Georgia, Kentucky, Maryland,
    FY 2007       Massachusetts, Nebraska, New Hampshire, New Jersey, North Carolina,
                  Rhode Island, South Carolina, Tennessee, Utah, Vermont, West Virginia
                  Alaska, Arizona, District of Columbia, Florida, Hawaii, Indiana, Iowa,
    FY 2008       Louisiana, Maine, Mississippi, Montana, Nevada, New York, Oregon, South
                  Dakota, Texas, Washington
Note: The cycle repeats starting in FY 2009.

The Office of Inspector General reviews the PERM program. Our work has included testing and
analysis of the PERM sampling and estimation methodology, the medical records request
process, medical review, and the error estimation calculation.




                                                3
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to analyze improper payment information related to the types of errors and the
service categories included in the FY 2006 and 2007 PERM program reviews.

Scope

The PERM review contractor identified 1,541 medical review errors and 219 data processing
errors in its sample of claims. However, information was missing from 185 medical review
errors and 17 data processing errors, precluding us from classifying those claims by medical
service category. We analyzed the remaining sample items from the FY 2006 and 2007 PERM
program reviews that were paid in error: 1,356 sample items with medical review errors that
resulted in improper Medicaid payments totaling $1,432,029 and 202 sample items with data
processing errors that resulted in improper Medicaid payments totaling $107,308. 4

We limited our review to Medicaid information that was related to the FY 2006 and 2007 PERM
reviews and provided by CMS’s PERM program contractors. We did not independently verify
the data provided by the contractors. The audit objective did not require that we identify or
review the PERM program contractors’ internal control systems.

We performed our audit work from May through July 2009.

Methodology

To accomplish our objective, we:

       reviewed the Recovery Act,

       reviewed CMS PERM reports for FYs 2006 and 2007,

       obtained and analyzed PERM sample-item documentation from the
        documentation/database contractor,

       obtained and analyzed PERM error data from the documentation and statistical
        contractors,

       reviewed the reasons listed for the data processing errors,

       matched the sample documentation to the error data to identify the type of service for
        sample items with improper payments,




4
 Improper payments were measured as both overpayments and underpayments the States made. To calculate the
net overpayments, we subtracted the underpayment amounts from the overpayment amounts.
                                                     4
      determined the service category using service codes and definitions created for the
       Medicaid Statistical Information System (MSIS) and additional service codes CMS
       created for the PERM program, and

      combined the error data for FYs 2006 and 2007 and analyzed it by type of error and
       service category.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

We analyzed 1,356 medical review errors and 202 data processing errors identified by the PERM
review contractor. Of the 1,356 medical review errors, 4 types of errors represented 78 percent
of the errors and 95 percent of the net improper Medicaid overpayments. The medical review
errors included 23 service categories, 6 of which represented 67 percent of the errors and
95 percent of the net improper Medicaid overpayments.

Of the 202 data processing errors, 4 types of errors represented 78 percent of the errors and
64 percent of the net improper Medicaid overpayments. The data processing errors included 18
service categories, 6 of which represented nearly 73 percent of the errors and 79 percent of the
net improper Medicaid overpayments.

The total payment for Medicaid sample items in error was $1,539,337.

MEDICAL REVIEW ERRORS

Errors by Type

Of the 1,356 medical review errors, 4 types of errors represented 78 percent of the errors and
95 percent of the net improper Medicaid overpayments. The four types of errors were
insufficient documentation, no documentation, services that violated State policies, and
medically unnecessary services. Table 2 provides more information about the four types of
errors.




                                                5
     Table 2: Number and Percentage of Medical Review Errors and Dollar Amounts
                  Related to the Four Most Frequent Errors by Type

                                   Amount of           Amount of
                                    Improper           Improper       Number
                                    Medicaid           Medicaid         of       Percentage
        Errors by Type            Overpayments       Underpayments    Errors      of Errors
     Insufficient
     documentation                 $586,254                  0          507        37.4%

     No documentation               362,695                  0          339        25.0%
     Policy violation               230,485                  0          175        12.9%
     Medically unnecessary
     service                        181,497               $695           32          2.4%

Errors by Service Categories

The 1,356 medical review errors included 23 service categories, 6 of which represented
67 percent of the errors and 95 percent of the net improper Medicaid overpayments. The six
service categories were nursing facility, inpatient hospital, other services—Home and
Community-Based Services waivers, intermediate care facility for the mentally retarded,
prescribed drugs, and physician. Table 3 provides more information about these six service
categories. (See Appendix C for additional information on errors related to service categories.)

           Table 3: Number and Percentage of Medical Review Errors and
  Dollar Amounts Related to the Six Service Categories With the Highest Overpayments

                                   Amount of           Amount of
                                    Improper           Improper      Number      Percentage
                                    Medicaid           Medicaid        of          of All
         Service Categories       Overpayments       Underpayments   Errors        Errors
     Nursing facility               $515,167             $864          182         13.4%
     Inpatient hospital              334,301             9,565         103          7.6%
     Other services—Home and
        Community-Based
        Services waivers             332,720               96          208         15.3%
     Intermediate care facility
     for the mentally retarded       151,352                0            26         1.9%
     Prescribed drugs                 26,772                0          257         19.0%
     Physician                        13,415              298          132          9.7%




                                                 6
DATA PROCESSING ERRORS

Errors by Type

Of the 202 data processing errors, 4 types of errors represented 78 percent of the errors and
64 percent of the net improper Medicaid overpayments. The four types of errors were pricing
errors, noncovered services errors, rate cell errors for managed care claims, 5 and errors in the
logic edits of claim processing systems. Table 4 provides more information about the four types
of errors.

          Table 4: Number and Percentage of Data Processing Errors and Dollar Amounts
                       Related to the Four Most Frequent Errors by Type


                                             Percentage          Amount of                   Amount of
                              Number           of All             Medicaid                   Medicaid
          Errors by Type      of Errors        Errors           Overpayments               Underpayments
          Pricing                 85            42.0%                 $1,936                    $20,669 6
          Noncovered
          services                38            18.8%                 68,057                          285
          Rate cell               21            10.4%                  5,514                        1,965
          Logic edit              14              6.9%                16,416                          316

Pricing errors were claim items for which payment did not correspond with the States’ pricing
schedules for those services. The reasons most cited for pricing errors were:

               Incorrect claim system calculations (including rounding) were made (43 errors).

               Rates were entered into the claim system incorrectly (13 errors).

               Incorrect patient liability was deducted from claim payments (10 errors).

Noncovered service errors were claim items in which State policies indicated that services were
not payable under State plans or the coverage categories under which the recipients were
eligible. The most frequently cited reasons for noncovered service errors were:

           The recipients were not shown as eligible in the claim systems on the dates of service
            (15 errors).

           Prior authorization was required but either was not shown on the claims or in the States’
            systems or was not current for the dates of service (12 errors).

5
  Rate cells are the combinations of eligibility and demographics (e.g., county of residence, age, sex) used to isolate
medical utilization patterns for determining capitation payment rates that the State pays to managed care health
plans. A rate cell error would occur, for example, when a State paid the capitation payment rate for a 28-year-old
female residing in X County when the person selected for review was a 28-year-old male residing in X County.
6
    One inpatient hospital claim accounted for $17,335 of this underpayment amount.
                                                           7
Managed care was not included in the FY 2006 PERM review. In spite of this, incorrect rate cell
errors for beneficiaries enrolled in managed care plans were more than 10 percent of the
combined error total for FYs 2006 and 2007. The most common causes listed for these errors
were:
         The wrong rate cell was used for a Medicare recipient who also had Medicaid
            coverage (14 errors).

           A Medicare rate cell was used for a non-Medicare recipient who had Medicaid
            coverage (5 errors).

Logic edit errors were instances in which a claim processing system edit was not in place
because of State policy or a system edit was in place but was not working correctly and allowed
payment. Two reasons were noted for these errors:

           A system edit should have stopped the payment (12 errors).

           A system edit was turned off (2 errors).

Errors by Service Categories

The 202 data processing errors included 18 service categories, 6 of which represented nearly
73 percent of the errors and 79 percent of the net improper Medicaid overpayments. The six
service categories were inpatient hospital, nursing facility, capitated care, prescribed drugs,
physician, and outpatient hospital. Table 5 provides more information about these six service
categories. (See Appendix D for additional information on the number, types, and dollar
amounts of errors for different service categories.)

              Table 5: Number and Percentage of Data Processing Errors and
             Dollar Amounts Related to the Six Most Frequent Service Categories

                                         Percentage        Amount of               Amount of
         Service           Number          of All       Improper Medicaid       Improper Medicaid
        Categories         of Errors       Errors         Overpayments           Underpayments
    Inpatient hospital         32           15.8%             $27,897                  $20,418
    Nursing facility           30           14.9%              59,300                      372
                     7
    Capitated care             28          13.9%                6,528                    1,965
    Prescribed drugs           23           11.4%                 709                      230
    Physician                  17            8.4%              11,372                       20
    Outpatient hospital        17            8.4%               2,879                      638




7
 This category encompasses capitated payments to two MSIS type-of-service codes: 20—Health Maintenance
Organization and Health Insuring Organization and 21—Prepaid Health Plans. We used the broad title of
“Capitated care” because we could not determine which errors related to which MSIS codes.
                                                    8
For inpatient hospital items, pricing errors and logic edit errors represented 28 of the 32 errors.
The 25 pricing errors totaled $1,034 in overpayments and $19,267 in underpayments. (One
inpatient hospital item had a $17,335 underpayment because rates had been incorrectly entered
into the State’s claims-processing system.) The three logic edit errors resulted in overpayments
totaling $14,428.

For nursing facility items, noncovered services errors and pricing errors represented 24 of the 30
errors. The 14 noncovered services errors totaled $55,513 in overpayments, with no
underpayments; the 10 pricing errors totaled $186 in overpayments and $74 in underpayments.

For capitated care items, rate cell errors represented 21 of the 28 errors. The 21 errors totaled
$5,514 in overpayments and $1,965 in underpayments. Three of the remaining errors, which
related to noncovered services provided to a recipient who was not eligible on the date of
service, resulted in an overpayment of $759.

For prescribed drug items, pricing errors represented 14 of the 23 errors. The 14 errors totaled
$14 in overpayments and $230 in underpayments. Seven errors totaling $679 in overpayments
occurred because the Medicaid payments should have been denied pending payment by a third
party.

For physician services items, errors falling under the administrative/other category represented
8 of the 17 errors. The eight errors totaled $10,575 in overpayments.

Although 10 of the 17 outpatient hospital errors involved pricing, they totaled only $0.28 in
overpayments and $129 in underpayments. One of the errors involved an item that was paid as a
fee-for-service claim but should have been covered under a managed care plan. This error
resulted in a $2,199 overpayment.

RECOMMENDATION

For future PERM years, we recommend that CMS develop and provide to the States analytical
data similar to that contained in this report and encourage the States to use the data to help ensure
that payments, including those funded by the Recovery Act, comply with Federal requirements.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

CMS concurred with the recommendation and said that it would be implemented starting with
the FY 2010 measurement cycle. CMS’s comments are included in their entirety as Appendix E.




                                                 9
APPENDIXES
                                                                               Page 1 of 2


     APPENDIX A: STATES’ FEDERAL MEDICAL ASSISTANCE PERCENTAGES AND
                INCREASED GRANT PERCENTAGES AND AMOUNTS
              FOR THE FIRST TWO QUARTERS OF FISCAL YEAR 2009

                                      Increased FMAP
                                      for the First and
                                      Second Quarters      Percentage      Increased Federal
         State         FY 2009 FMAP      of FY 2009       Point Increase     Grant Award
Alabama                   67.98%           76.64%             8.66%          $169,785,318
Alaska                    50.53%           58.68%             8.15%             41,574,129
Arizona                   65.77%           75.01%             9.24%            351,481,067
Arkansas                  72.81%           79.14%             6.33%            109,874,448
California                50.00%           61.59%            11.59%          1,991,907,534
Colorado                  50.00%           58.78%             8.78%            140,911,583
Connecticut               50.00%           60.19%            10.19%            274,618,177
Delaware                  50.00%           60.19%            10.19%             60,652,541
District of Columbia      70.00%           77.68%             7.68%             58,882,030
Florida                   55.40%           67.64%            12.24%            817,026,895
Georgia                   64.49%           73.44%             8.95%            339,608,197
Hawaii                    55.11%           66.13%            11.02%             70,573,033
Idaho                     69.77%           78.37%             8.60%             53,438,211
Illinois                  50.32%           60.48%            10.16%            506,396,236
Indiana                   64.26%           73.23%             8.97%            247,163,403
Iowa                      62.62%           68.82%             6.20%             89,098,176
Kansas                    60.08%           66.28%             6.20%             71,575,227
Kentucky                  70.13%           77.80%             7.67%            205,301,202
Louisiana                 71.31%           80.01%             8.70%            229,959,088
Maine                     64.41%           72.40%             7.99%             94,547,202
Maryland                  50.00%           58.78%             8.78%            275,508,598
Massachusetts             50.00%           58.78%             8.78%            896,759,179
Michigan                  60.27%           69.58%             9.31%            464,364,309
Minnesota                 50.00%           60.19%            10.19%            356,191,144
Mississippi               75.84%           83.62%             7.78%            143,364,649
Missouri                  63.19%           71.24%             8.05%            270,528,865
Montana                   68.04%           76.29%             8.25%             34,248,946
Nebraska                  59.54%           65.74%             6.20%             47,843,363
Nevada                    50.00%           63.93%            13.93%             90,310,490
New Hampshire             50.00%           56.20%             6.20%             31,531,287
New Jersey                50.00%           58.78%             8.78%            362,234,506
New Mexico                70.88%           77.24%             6.36%             95,239,707
New York                  50.00%           58.78%             8.78%          2,070,832,598
North Carolina            64.60%           73.55%             8.95%            439,570,159
North Dakota              63.15%           69.95%             6.80%             18,837,293
                                                                                   Page 2 of 2


                                          Increased FMAP
                                          for the First and
                                          Second Quarters      Percentage      Increased Federal
        State          FY 2009 FMAP          of FY 2009       Point Increase     Grant Award
Ohio                      62.14%               70.25%             8.11%            $500,169,636
Oklahoma                  65.90%               74.94%             9.04%             174,758,013
Oregon                    62.45%               71.58%             9.13%             155,826,609
Pennsylvania              54.52%               63.05%             8.53%             680,278,921
Rhode Island              52.59%               63.89%            11.30%              93,509,354
South Carolina            70.07%               78.55%             8.48%             175,478,668
South Dakota              62.55%               68.75%             6.20%              20,496,315
Tennessee                 64.28%               73.25%             8.97%             342,931,044
Texas                     59.44%               68.76%             9.32%             952,186,421
Utah                      70.71%               77.83%             7.12%              53,362,783
Vermont                   59.45%               67.71%             8.26%              45,464,332
Virginia                  50.00%               58.78%             8.78%             252,659,121
Washington                50.94%               60.22%             9.28%             339,330,717
West Virginia             73.73%               80.45%             6.72%              76,479,599
Wisconsin                 59.38%               65.58%             6.20%             163,109,663
Wyoming                   50.00%               56.20%             6.20%              15,922,133
  Total                                                                         $15,563,702,119

   FY = fiscal year
   FMAP = Federal medical assistance percentage
                                                                                             Page 1 of 2


                 APPENDIX B: MEDICAL AND DATA PROCESSING REVIEW
                           ERROR CODES AND DEFINITIONS

        Medical Review Error            Definition
        No documentation                The provider did not respond to the request for records
                                        within the 60-day timeframe. 1
        Insufficient                    The provider did not return requested information or did
        documentation                   not submit sufficient documentation for the reviewer to
                                        determine whether the claim should have been paid.
        Procedure coding error          The provider performed a procedure but billed an
                                        incorrect procedure code.
        Diagnosis coding error          The provider billed using an incorrect diagnosis.
        Unbundling                      The provider billed for the separate components of a
                                        procedure code when one inclusive procedure code
                                        should have been billed.
        Number of unit(s) error         The provider billed for an incorrect number of units for a
                                        particular service.
        Medically unnecessary           The provider billed for a service determined to have been
        service                         medically unnecessary based on information in the
                                        patient’s medical record.
        State policy violation          Either the provider billed and was paid for a service that
                                        was not in agreement with State policy or the provider
                                        billed but was not paid for a service that, according to
                                        State policy, should have been paid.
        Administrative/other            A payment error was discovered during a medical review
                                        but was not one of the other errors.




1
    The timeframe for FY 2006 was 90 days.
                                                                                    Page 2 of 2



Data Processing Error         Definition
Duplicate item                An exact duplicate of the unit was paid.
Noncovered service            State policies indicate that the service was not payable
                              under the State plan or the coverage category for which
                              the person was eligible.
Fee-for-service claim for a   The beneficiary was enrolled in a managed care plan,
managed care service          which should have covered the service.
Third-party liability         A third-party insurer was liable for all or part of the
                              payment.
Pricing error                 Payment for the service did not correspond with the
                              pricing schedule for that service.
Logic edit                    Either a system edit was not in place because of policy or
                              a system edit was in place but was not working correctly
                              (e.g., incompatibility between gender and procedure or
                              ineligible beneficiary or provider).
Data entry error              A clerical error was made in the data entry of the
                              sampling unit.
Rate cell error               The beneficiary was enrolled in managed care and
                              payment was made for the wrong rate cell.
Managed care payment          The beneficiary was enrolled in managed care but was
error                         assigned the wrong payment amount.
Administrative/other          A payment error was discovered during a data processing
                              review but was not one of the other error categories.
                                    APPENDIX C: SUMMARY OF CLASSIFIABLE MEDICAL REVIEW ERRORS AND THE
                                        RESULTING OVERPAYMENTS AND UNDERPAYMENTS FOR EACH TYPE
                                                                                           Total Payment                                                 Net            Percentage of
            Medicaid Statistical Information System                Number      Percentage for Sample Items      Amount of          Amount of         Overpayment            Net
              Numerical Codes and Definitions                      of Errors    of Errors   With Errors        Overpayment        Underpayment         Amount           Overpayment
       1      Inpatient hospital                                      103         7.6%          $615,801            $334,301           $9,565             $324,736           22.7%
       2      Mental hospital services for the aged                     1         0.1%               657                 657                0                  657            0.0%
       4      Inpatient psychiatric under 21                            7         0.5%             5,283               1,467                0                1,467            0.1%
       5      Intermediate care facility for mentally retarded         26         1.9%           171,022             151,352                0              151,352           10.6%
       7      Nursing facility                                        182        13.4%           521,522             515,167              864              514,303           35.9%
       8      Physician                                               132         9.7%            19,347              13,415              298               13,117            0.9%
       9      Dental                                                   27         2.0%             4,126               4,057               10                4,047            0.3%
              Other licensed practitioners’ services (could not
              classify more specifically)                               8         0.6%               333                  92                 0                    92          0.0%
       10     Other licensed practitioners—podiatrists                  1         0.1%                18                   0                 0                     0          0.0%
              Other licensed practitioners—psychologists                1         0.1%                60                  60                 0                   60           0.0%
              Other licensed practitioners—optometrists                 2         0.1%                 7                   0                 7                   (7)          0.0%
       11     Outpatient hospital                                      45         3.3%            12,310              11,139                 0               11,139           0.8%
       12     Clinic services                                          46         3.4%            11,190               9,306                30                9,276           0.6%
              Home health services (could not classify more
              specifically)                                            20         1.5%             2,442               1,760                40                1,720           0.1%
       13     Home health services—nursing services                     8         0.6%             2,401               2,386                 0                2,386           0.2%
              Home health services—aide services                        6         0.4%               427                 427                 0                  427           0.0%
              Home health services—supplies                            19         1.4%             3,810               3,656                 0                3,656           0.3%
       15     Lab and x-ray                                            52         3.8%             1,198                 578                 3                  575           0.0%
       16     Prescribed drugs                                        257        19.0%            26,778              26,772                 0               26,772           1.9%
              Other services—prosthetic devices                         3         0.2%               364                 288                 0                  288           0.0%
       19     Other services—Home and
              Community-Based Services waiver                         208        15.3%           346,023             332,720                96              332,624          23.2%
       20                      1
              Capitated care
       21                                                               2         0.1%             2,675               2,675                0                 2,675           0.2%
       26     Transportation                                           42         3.1%             1,786               1,653               49                 1,604           0.1%
       30     Personal care services                                   72         5.3%            16,621               8,739              170                 8,569           0.6%
       31     Targeted case management services                        34         2.5%             4,870               4,497                0                 4,497           0.3%
       33     Rehabilitative services                                  27         2.0%             5,104               4,781                0                 4,781           0.3%
              Physical therapy, occupational therapy, and
       34     services for individuals with speech, hearing, and
              language disorders                                       18         1.3%               447                 412                 0                  412           0.0%
       35     Hospice services                                          4         0.3%            14,943              10,524                 0               10,524           0.7%
       37     Nurse practitioner                                        1         0.1%                 2                   2                 0                    2           0.0%
       38     Private-duty nurse                                        2         0.1%               450                 278                 0                  278           0.0%
                 Total                                              1,356       99.8% 2      $1,792,017          $1,443,161          $11,132            $1,432,029           99.8%2




1
 This category encompasses capitated payments to two Medicaid Statistical Information System (MSIS) codes: 20—Health Maintenance Organization and Health Insuring Organization and
21—Prepaid Health Plans. We used the broad title of “Capitated care” because we could not determine which errors related to which MSIS codes.
2
    Total does not equal 100 percent due to rounding.
                             APPENDIX D: SUMMARY OF CLASSIFIABLE DATA PROCESSING ERRORS AND THE
                                 RESULTING OVERPAYMENTS AND UNDERPAYMENTS FOR EACH TYPE
                                                                                    Total Payment
                                                        Number                       for Sample                                                               Percentage of
                                                          of        Percentage of    Items With      Amount of      Amount of        Net Overpayment               Net
   MSIS Numerical Codes and Definitions                 Errors         Errors           Errors      Overpayment    Underpayment          Amount               Overpayment
 1 Inpatient hospital                                      32           15.8%         $239,151         $27,897        $20,418              $7,479                  7.0%
 2 Mental hospital services for the aged                    1            0.5%             9,900          9,900              0               9,900                  9.2%
 4 Inpatient psychiatric under 21                           1            0.5%               312            312              0                 312                  0.3%
 5 Intermediate care facility for mentally retarded         6            3.0%            43,385         10,236              0              10,236                  9.5%
 7 Nursing facility                                        30           14.9%           105,901         59,300            372              58,928                 54.9%
 8 Physician                                               17            8.4%            18,463         11,372             20              11,352                 10.6%
 9 Dental                                                   2            1.0%               195              0             82                (82)                 -0.1%
11 Outpatient hospital                                     17            8.4%            23,321          2,879            638               2,241                  2.1%
12 Clinic services                                         11            5.4%             1,184            534             39                 495                  0.5%
13 Home health services—supplies                            4            2.0%                77             14            142               (128)                 -0.1%
14 Crossover claims                                         4            2.0%             1,170          1,105              0               1,105                  1.0%
15 Lab and x-ray                                           11            5.4%               914             39              7                  32                  0.0%
16 Prescribed drugs                                        23           11.4%           214,594            709            230                 479                  0.4%
   Other services—Home and Community-Based
19
   Services waiver                                              3        1.5%            7,233            224              888                (664)               -0.6%
20
   Capitated care 1
21                                                             28       13.9%           11,324           6,528           1,965               4,563                 4.3%
   Capitated payments primary care case
22
   management                                               1           0.5%                 2               0               0                   0                 0.0%
92 Part B premium 2                                        10           5.0%             1,149           1,060               0               1,060                 1.0%
93 Health insurance premium 3                               1           0.5%               237               0               0                   0                 0.0%
      Total                                               202         100.1% 4        $678,512        $132,109         $24,801            $107,308                100%



       1
        This category encompasses capitated payments to two MSIS codes: 20—Health Maintenance Organization and Health Insuring Organization and 21—Prepaid
       Health Plans. We used the broad title of “Capitated care” because we could not determine which errors related to which MSIS code.
       2
        There is no official MSIS category for Part B premiums. However, in a Centers for Medicare & Medicaid Services (CMS) letter addressed to the States
       selected for 2006 PERM program reviews, the States were instructed to use this code.
       3
         There is no official MSIS category for health insurance premiums. However, in a CMS letter addressed to the States selected for 2006 PERM program reviews,
       the States were instructed to use this code.
       4
           Total does not equal 100 percent due to rounding.
                                                                                                        Page 10f2


APPENDIX E: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS



       DEPARTMENT OF HEALTH « HUMAN SERVICES

                                                                                 A d ... il1istra tor
                                                                                 WasNngIon. DC 20201




                           M.IR 0 2 101 0
       D ATE:

       TO:            Daniel R. Levinson 

                      Inspector Ge?\r~l. 


       FROM:
                  f'i ."  0._. =",r­

                  l/"Ch'arle~rizzera
                      Acting Administrator

       SU BJECT: 	 omce of Inspector General (OIG) Draft Report: "AnalysiS of Improper 

                   Payments Idenlified DUring the Payment Error Rate Measurement 

                      Program Reviews in 2006 and 2007" (A-06-09-00079) 


       Thank you for the opportunity to comment on the O[G draft report entitled, " Analysis o f
       Improper Payments Identifi ed During the Payment Error Rate Measurement (PER..\1)
       Program Reviews in 2006 and 2007" (A·Q6·09·00079). We appreciate the OIG's review
       of the errors identi fied during the 2006 and 2007 PERM processes. eMS developed the
       PERM program to comply with the Improper Payments Improveme nt Ae t of 2002 (IPIA)
       and the Offiee of Management and Budget's requireme nt to measure imprope r payments
       in the Medicaid program.

       An integral part of the PERM process is to esti mate improper payments, as well as assist
       States in reducing their improper payments and maintaining the fiscal integrity of the
       Medicaid program. The OIG 's add itional analysis demonstrates the uti lity of us ing
       PERM data to focus on high-dollar errors by service type and error type so Stales can
       target thei r corrective actions and improve the accuracy of thei r payments. We believe
       that completing and shari ng this additional analysis with States will strengthen the
       outcome o f the PERM process and enable States to bener focus thei r corrective actions to
       reduce imprope r payments as we mo\'e forward.

       We appreci ate the OIG's wo rk in this area and look forward to working with them as we
       re fine the PERM process. Our TCsponse to the O rG's recommend;)!ion is below.

       OIG Recommendation

       For future PERM ye ars, we recommend Ihat eMS develop and provide to the States
       analytical dala similar to that contained in this report and encourage the States to use the
       data 10 he lp ensure that payments. includi ng those funded by the Recovery Act, comply
       with Federal requirements.
                                                                                             Page 20f2




Page 2 - Daniel R. Levinson


eMS Response

eMS concurs and will implcment the recommendation starting with the FY 2010
measurement cycle.

To implement this recommendation, eMS will :
    • 	 Perfonn an analysis similar to the DIG's, categori zing errors by service type and
        error type, and circulate this analysis to all States for each PERM year;
    • 	 In conjunction with the PERM Technical Advisory Group, solicit the States for
        other useful categories or data analysis techniques that might be instrumcntal in
        reducing improper Medicaid payments;
    • 	 Incorporate these analyses in the corrective actio n efforts that eMS and Statcs
        implement; and
    • 	 Track and report these analyses over time to mo nitor the effectiveness of the
        resulting error reduction efforts.                             .

Agai n, we believe providing this additional data will strengthcn the PERM measurement
and assist the States in identifying specific areas that present financia l risk to the
Medicaid program.
